<html>
<title> - HIGH RISK: GOVERNMENT OPERATIONS SUSCEPTIBLE TO WASTE, FRAUD, AND MISMANAGEMENT</title>
<body><pre>[Senate Hearing 115-314]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-314

                    HIGH RISK: GOVERNMENT OPERATIONS
             SUSCEPTIBLE TO WASTE, FRAUD, AND MISMANAGEMENT

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

                           FEBRUARY 15, 2017

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/
        
                          Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-768 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d6b1a6b996b5a3a5a2beb3baa6f8b5b9bbf8">[email&#160;protected]</a> 

        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
       Patrick J. Bailey, Chief Counsel for Governmental Affairs
               Margaret E. Daum, Minority Staff Director
                Donald Sherman, Minority Senior Counsel
                     Laura W. Kilbride, Chief Clerk
                    Bonni Dinerstein, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     2
    Senator Carper...............................................    17
    Senator Portman..............................................    19
    Senator Lankford.............................................    22
    Senator Tester...............................................    25
    Senator Harris...............................................    28
    Senator Paul.................................................    31
    Senator Heitkamp.............................................    34
Prepared statements:
    Senator Johnson..............................................    39
    Senator McCaskill............................................    41

                               WITNESSES
                      Wednesday, February 15, 2017

Hon. Eugene L. Dodaro, Comptroller General of the United States, 
  U.S. Government Accountability Office..........................     4
Hon. John H. Thompson, Director, U.S. Census Bureau, U.S. 
  Department of Commerce.........................................     6
Hon. Michael J. Missal, Inspector General, U.S. Department of 
  Veterans Affairs...............................................     8
Hon. John Roth, Inspector General, U.S. Department of Homeland 
  Security.......................................................    10

                     Alphabetical List of Witnesses

Dodaro, Hon. Eugene L.:
    Testimony....................................................     4
    Prepared statement...........................................    44
Missal, Hon. Michael J.:
    Testimony....................................................     8
    Prepared statement...........................................   107
Roth, Hon. John:
    Testimony....................................................    10
    Prepared statement...........................................   114
Thompson, Hon. John H.:
    Testimony....................................................     6
    Prepared statement...........................................    97

                                APPENDIX

Chart referenced by Senator Johnson..............................   126
Mr. Dodaro response to Senator Portman...........................   147
Mr. Dodaro response to Senator Lanfkord..........................   148
Responses to post-hearing questions for the Record
    Mr. Dodaro...................................................   128
    Mr. Thompson.................................................   149
    Mr. Missal...................................................   154
    Mr. Roth.....................................................   159

 
                    HIGH RISK: GOVERNMENT OPERATIONS
             SUSCEPTIBLE TO WASTE, FRAUD, AND MISMANAGEMENT

                              ----------                              


                      WEDNESDAY, FEBRUARY 15, 2017

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:49 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Paul, Lankford, Hoeven, 
McCaskill, Carper, Tester, Heitkamp, Peters, Hassan, and 
Harris.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order. Good 
afternoon. I want to welcome all our witnesses. I appreciate 
your thoughtful testimony and your willingness to spend some 
time here with us today.
    I ask consent that my written opening statement be entered 
in the record.\1\ Without objection.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 39.
---------------------------------------------------------------------------
    This hearing is really what this Committee is all about, 
particularly on the Governmental Affairs portion. We have a 
mission statement that we developed last Congress with my 
former Ranking Member, Senator Carper, and then my new Ranking 
Member had a very good addition to it. The original one was to 
enhance the economic and national security of America. Senator 
McCaskill suggested we add ``and promote more efficient, 
effective, and accountable government.''
    Of course, that is exactly what the Government 
Accountability Office (GAO) does. That is exactly what 
Inspectors General (IGs) do. And so, we certainly appreciate 
your work. I do not know how many times I have said, and I 
think others have said, that you are our favorite folks in 
government. You give us the information that really can make 
government more efficient, more effective, and accountable.
    Today's hearing is about the GAO's High-Risk Series, their 
list. This is something that has been prepared by GAO since the 
early 1990s. The facts speak for themselves. In just the last 
10 years, GAO reports that we probably saved about $240 million 
over that 10-year period by enacting their recommendations to 
make government more efficient and effective. That is $24 
billion per year.
    Of course, IGs play a key role in that as well. Senator 
Grassley and I sent a letter and requested that the IGs of the 
last Congress give us a list of all their recommendations that 
are outstanding, that have not been implemented. The result was 
15,222; net potential savings, about $87 billion. So, even in 
the Federal Government, that is real money, and it is really 
folks like you that can make a huge difference.
    Today's hearing, what we decided to do is this--because we 
have listened to Mr. Dodaro testify beautifully without notes, 
and he can speak an awful lot. But, rather than have him 
completely on the hot seat there, we thought we would invite 
two Inspectors General, and we have Mike Missal, the Inspector 
General of the Department of Veterans Affairs (VA), and John 
Roth, the Inspector General of the Department of Homeland 
Security (DHS), to testify in terms of their Department, the 
activity, and the High-Risk List. We also invited John 
Thompson, the Director of the Census Bureau, and, Mr. Thompson, 
we did not invite you to be here to be on the hot seat. 
Obviously, the Census is under this Committee's jurisdiction, 
and I really wanted to bring in the Director and get his 
viewpoint in terms of a Director of one of these agencies that 
is listed on the High-Risk List, how you view that, what you 
do, what are your challenges in trying to get off the High-Risk 
List, and how seriously do you really take it. Again, I truly 
appreciate it--we will go easy on you here. We truly appreciate 
you coming.
    I am looking forward to the hearing. I do not want to spend 
much more time. I will turn it over to Senator McCaskill.

           OPENING STATEMENT OF SENATOR MCCASKILL\1\

    Senator McCaskill. Thank you, Mr. Chairman, for holding 
this important hearing. I know that Mr. Dodaro knows this, that 
I really consider GAO to be one of the most important entities 
in Washington, D.C. It is an independent, nonpartisan agency 
that investigates how the Federal Government spends tax 
dollars. Your work supports us in meeting our legislative and 
oversight obligations under the Constitution and helps us to 
improve accountability in the Federal Government. And, the 
important thing is you provide information that is objective, 
that is fact based, nonpartisan, fair, and balanced.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 41.
---------------------------------------------------------------------------
    At the beginning of each Congress, you release a report of 
government programs that are at high risk due to their 
vulnerabilities to fraud, waste, abuse, and mismanagement. 
Shortly after the release of the report, the Senate Committee 
on Homeland Security and Governmental Affairs (HSGAC) invites 
GAO's leaders--the Comptroller--to testify. I appreciate that 
this hearing is one of our first full Committee hearings of the 
115th Congress. GAO's 2017 High-Risk Report provides us with a 
list of priorities for how this Committee can target and root 
out waste, fraud, and abuse.
    For example, GAO's report says the Federal Government 
oversees more than $80 billion in taxpayer funds for 
information technology (IT) investments. But, poor management, 
as we know, leads many IT contracting projects to fail or 
experience significant cost overruns. Contract oversight is not 
a new problem in government, but it remains one of the 
intractable and most important problems out there.
    While most government employees are dedicated public 
servants, GAO's High-Risk Report highlights that more work is 
needed to ensure that the Federal bureaucracy performs 
effectively and efficiently on behalf of the American people. 
The report identifies several ``mission-critical'' skill gaps 
within the Federal workforce that could pose risks to American 
tax dollars and to American lives.
    For example, it is alarming that even after the large-scale 
cyber breach at the Office of Personnel Management (OPM) and 
the medical wait list scandal at the Department of Veterans 
Affairs, some of the Federal skills gap identified by GAO still 
include cybersecurity and nursing.
    This year, GAO added the 2020 Census program to its list of 
high-risk areas. Knowing that our next Census is rapidly 
approaching, I am grateful that Director Thompson is here to 
provide a status update on the program. The cost of the Census 
has risen over the last few decades, with the 2010 Census being 
the costliest U.S. Census in history. Billions of tax payer 
dollars were wasted on programs that had to be scrapped at the 
last minute in order to ensure the 2010 Census was done on 
time.
    Given these challenges and the important role the Census 
plays in counting our citizens as well as allocating precious 
taxpayer dollars to communities, I am eager to learn how the 
Bureau expects to effectively manage costs this time while 
simultaneously modernizing the Census program.
    I am grateful to Inspectors General Roth and Missal for 
joining Comptroller General Dodaro and Director Thompson here 
today to discuss their work to improve government programs at 
the Department of Homeland Security and Veterans Affairs, 
respectively. When there is ineffective oversight and 
accountability in government, money gets wasted and 
mismanagement goes unaddressed.
    As a former State auditor, I consider government 
accountability as maybe the most important part of my work here 
in the Senate. Last week, President Trump signed into law the 
GAO Access and Oversight Act, a bipartisan measure that I 
cosponsored to ensure that GAO has full access to the National 
Database of New Hires, a key tool for cutting waste and fraud 
in many of the government's largest programs, as well as 
allowing States to aggressively pursue child support payments. 
The law also strengthens GAO's ability to take legal action if 
an agency refuses to provide GAO with information necessary to 
perform its functions. This law is a great example of what our 
Committee can do when we work together to promote 
accountability in the Federal Government.
    The Federal Government is a complex system of agencies. It 
spends more than $3 trillion annually on behalf of the American 
people. We are members of a public trust to ensure those tax 
dollars are used well.
    Thank you so much for being here today. Thank you, Mr. 
Chairman, for having this Committee hearing, and I will look 
forward to questions.
    Chairman Johnson. Thank you, Senator McCaskill.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all rise and raise your right hand. 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Dodaro. I do.
    Mr. Thompson. I do.
    Mr. Missal. I do.
    Mr. Roth. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Eugene Dodaro. Mr. Dodaro has been the 
Comptroller General of the U.S. Government Accountability 
Office since 2010 and has more than 40 years experience at the 
agency, including as Acting Comptroller General, Chief 
Operating Officer (COO), and head of the Accounting and 
Information Management Division. Comptroller Dodaro.

  TESTIMONY OF THE HONORABLE EUGENE L. DODARO,\1\ COMPTROLLER 
 GENERAL OF THE UNITED STATES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Dodaro. Thank you very much, Mr. Chairman. Good 
afternoon to you, Ranking Member McCaskill. I am very pleased 
to be here today to discuss the latest addition to the GAO's 
high-risk program. I am pleased to report that many of the 32 
areas that were on the list in 2015 have shown improvement and 
are in a position now that they either meet or partially meet 
all five criteria for coming off the list.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dodaro appears in the Appendix on 
page 44.
---------------------------------------------------------------------------
    Now, the five criteria are leadership, you have to have the 
capacity, you have to have a good action plan, monitoring 
effort, and you have to demonstrate some progress. This is the 
one that is the hardest to meet, to actually show you are 
reducing the risk or making progress in fixing the problems.
    This progress is due to commitment by some of the agency 
leaders as well as the staff in the agencies, the Office of 
Management and Budget (OMB), and Congress. I am very pleased 
that the 114th Congress passed over 12 bills that addressed 
high-risk areas and were part of the reason why we are showing 
this progress. And, Congress held over 250 hearings on areas 
discussed in GAO's high-risk program. I am very pleased this 
Committee, in particular, was sponsoring a number of bills, 
holding a lot of hearings, and I am very appreciative of that. 
Congress is key to making progress. If you look at almost every 
area that we identify as achieving progress, congressional 
action has been instrumental in achieving that degree of 
progress.
    One area has met all the criteria and is coming off the 
list--managing the sharing of terrorism-related information. 
This is a very important area to the safety of our country. I 
can assure this Committee while it is coming off the list, it 
does not mean it is out of sight. We are going to keep an eye 
on it and make sure that things stay on track in that area.
    Another area that I know this Committee is very interested 
in is the Department of Homeland Security. IT has continued to 
show steady progress. Agency officials have improved their 
ability to monitor their action plan that they have in place. 
They really need to focus on their acquisition programs, fixing 
their financial management systems, and improving employee 
morale. Those are the key things they need to continue to do.
    There are a number of areas on the list, however, that need 
substantial attention, and these I would particularly cite for 
this Committee's attention.
    First is veterans' health care. I added that to the list in 
2015 for a number of very important reasons that I can 
elaborate on in the question and answer (Q&A), but I am very 
concerned that they have only made limited progress.
    Defense Department financial management, we talked about 
that several times before this Committee. They are still the 
only major Federal agency that has not been able to pass the 
test of an audit.
    Information technology and acquisitions and operations, as 
Senator McCaskill mentioned, that is an area that, while we 
have seen some progress, needs significantly more oversight and 
attention to make sure that it gets fixed.
    Cybersecurity, both cybersecurity as it relates to the 
Federal Government's own information systems, but also critical 
infrastructure like the electricity grid, financial markets, 
air traffic control system, and others. We added cybersecurity 
across the Federal Government as a high-risk area to the list 
in 1997, so this is the 20-year anniversary. We have been 
trying to get agencies to move on that area, and despite even 
the breaches, we have 1,000 recommendations that are still 
outstanding in the cybersecurity area.
    And then, reforming the housing finance system, this is one 
area that was not addressed coming out of the global financial 
crisis. Fannie Mae and Freddie Mac have been in conservatorship 
since 2008. A lot of the risk has moved to the Federal 
Government, either directly or indirectly--directly through the 
Federal Housing Administration (FHA), who received about $1.68 
billion in supplemental funding in 2013. About 70 percent of 
all the single-family mortgages originated in 2016 are either 
directly or indirectly supported by the Federal Government. We 
need to address Fannie and Freddie and get the private sector 
back into the financial market as well to reduce the risk on 
the Federal Government.
    We are adding three new areas this year. First is the 
Federal efforts to provide oversight over programs that serve 
Indian tribes and their members. We are very concerned. We 
looked at the education programs. Their schools are in poor 
condition, not properly staffed. The health care area, there 
are no quality standards for health care, a lot of vacant 
positions. They are distributing funds to send people to 
private sector care if it is not available in Indian hospitals. 
They are still using a formula that they used in the 1930s. 
That needs attention. And, also, some tribes want to develop 
oil and gas on their lands, but they need Federal permitting 
and licensing, and it is just slow. It takes forever, and they 
are not able to generate that revenue that could help them deal 
with a number of their issues.
    Second, there is growth in environmental liabilities for 
the Federal Government. This is to dispose of waste from the 
nuclear weapons complex as well as from other Federal 
activities. The liability right now is approaching one-half 
trillion dollars. I believe it to be understated because of 
problems that we have seen with agencies such as DOD estimating 
environmental liabilities for cleaning up locations like the 
Department of Energy nuclear waste sites and Defense Department 
installations.
    Now, the Federal Government spends billions of dollars 
every year to clean up this waste, but the liability keeps 
growing. There is not enough risk-based decisionmaking made in 
those areas. We have a number of outstanding recommendations.
    The last area is the Census. As you mentioned, we have 
added that to the list because of the fact that the last Census 
was over $12 billion, the costliest ever. In order to contain 
costs, Census officials have introduced a lot of novel concepts 
using the Internet, developing address lists from spatial and 
other means rather than going door to door canvassing, and also 
using administrative records and new information technology. 
All these things add to the risk. And, the final plans have not 
been put in place yet.
    We look forward to working with this Committee, and I look 
forward to answering questions today at the appropriate time. 
Thank you very much.
    Chairman Johnson. Thank you, Mr. Dodaro.
    Our next witness is John Thompson. Mr. Thompson is the 
Director of the Census Bureau. Before his appointment as 
Director, Mr. Thompson was president and Chief Executive 
Officer (CEO) at the National Opinion Research Center (NORC).
    Director Thompson.

TESTIMONY OF THE HONORABLE JOHN H. THOMPSON,\1\ DIRECTOR, U.S. 
           CENSUS BUREAU, U.S. DEPARTMENT OF COMMERCE

    Mr. Thompson. Good afternoon, Chairman Johnson, Ranking 
Member McCaskill, and Members of the Committee. I appreciate 
the opportunity to update you on the 2020 Census. I am proud to 
report today that we remain on the critical path to readiness.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Thompson appears in the Appendix 
on page 97.
---------------------------------------------------------------------------
    The 2020 Census has been added to the most recent High-Risk 
List from the Government Accountability Office. Both the 2000 
Census and 2010 Census were also on this list, which is a 
reflection of the complexity, scale, and importance of 
conducting a fair and accurate census. This decade, the 
complexity is heightened as we replace a paper-and-pencil-based 
design with innovative technologies that will save taxpayers 
billions of dollars. We already have robust controls in place 
to mitigate the risks that are inherent in carrying out this 
constitutionally mandated task.
    As we plan and test the 34 operations and roughly 50 
systems that comprise the 2020 Census, we are aware of the many 
risks the program faces. That is why we are working rigorously 
to manage, monitor, and mitigate those risks. In the final 
years of the decade, risk management is critical to our 
operational plan for 2020. Another important part of our 
preparations is continuing to work with our colleagues at the 
GAO and the Office of the Inspector General (OIG) at the 
Department of Commerce.
    I discuss the steps we are taking to mitigate risk in 
greater detail in my written testimony for the record, 
including the overarching risk of funding uncertainty. Today I 
want to highlight the following specific risk areas that we are 
concentrating on.
    First, cybersecurity, fraud detection, and ensuring the 
public's trust. We are actively securing our systems and 
devices for the 2020 Census and its field test while ensuring 
that we prevent fraud and cyber attacks. We will use a layered 
defense strategy to protect the data we collect and 
administrative records.
    Second, ensuring systems readiness. We have developed and 
field-tested proof-of-concept systems, and our design is 
supported by findings from the Census tests. Now that we have 
awarded nearly all of the key contracts for 2020, we are 
finalizing our system of systems ahead of the 2018 End-to-End 
Census Test.
    Third, refining our field procedures through testing.
    Fourth, managing the Integrated Master Schedule for the 
2020 Census and its supporting programs.
    And, last, documenting and validating our 2020 Census life 
cycle cost estimates.
    Census tests are key to finalizing our designs and reducing 
risk. Last year, we tested core Census operations in Harris 
County, Texas, and Los Angeles County, California. 
Additionally, we tested our address canvassing procedures and 
systems in parts of Buncombe County, North Carolina, and St. 
Louis, Missouri. We learned many lessons from these tests, and 
we are using those lessons to refine our operations and 
mitigate the risks of an innovative Census.
    In addition, the Census Bureau has planned test operations 
in 2017. These involve critical systems and operations that 
must be tested ahead of the 2018 End-to-End Census Test.
    The 2018 End-to-End Census Test is the final major field 
test before the 2020 Census. Field operations will begin in 
August 2017 with a Census Day of April 1, 2018. We will conduct 
the test in three areas: Pierce County, Washington; Providence 
County, Rhode Island; and the Bluefield-Beckley-Oak Hill area 
of West Virginia. Collectively, it will cover about 770,000 
housing units. We will test and prove in nearly all of the 2020 
Census operations, procedures, systems, and field 
infrastructure. We will also produce prototypes of our 
geographic and data release products.
    Making sure that all of these Census systems work 
individually and in concert with each other is critical. Using 
the lessons from 2018, we will make any necessary adjustments 
to ensure that we are ready for the Census and finalize our 
plans for operations.
    We have been transparent about how we are approaching the 
redesigned Census. We have held public quarterly program 
management reviews. We publicly documented and tracked our 
biggest decisions. We have shared our Integrated Master 
Schedule with the GAO every month, for example.
    There are many challenges ahead, but we are confident that, 
with appropriate funding levels, we can successfully execute 
the 2020 census. I need to note that 2017 and 2018 are critical 
years in the census cycle. The funding we receive in these 
years will have a great effect on the outcome of the 2020 
census, including achieving $5 billion in cost savings.
    We are now less than 6 months away from beginning field 
work on the final major test for the 2020 Census, but there is 
not yet clarity regarding the program's funding in 2017. In 
January, uncertainty about the fiscal year (FY) 2017 budget 
required us to make difficult decisions to descope some aspects 
of the program and pause others to mitigate funding uncertainty 
risk. This will lead to more address listing work in 2019, to a 
delay in opening three of our six regional Census centers in 
2017, and to the elimination of advertising in the 2018 End-to-
End Census Test. It will also lead to deep cuts to program and 
test management operations, despite the GAO and our Inspector 
General deeming them critical for a program of this complexity.
    I must stress that we need an adequate level of funding to 
do the development, testing, validation, documentation, and 
planning that are necessary for risk mitigation and which the 
GAO has urged us to conduct.
    We are planning an innovative, modern design for 2020 that 
will bring the decennial Census into the 21st Century. Our 
approach takes advantage of new technologies, methodologies, 
and data sources, while minimizing risk. With the funding we 
have requested, we can execute the design that will save 
taxpayers billions of dollars.
    I thank the Committee for your interest in our work. I look 
forward to discussing the challenges we face and how we are 
addressing them and to continuing our productive relationship 
with the GAO in the years ahead.
    Thank you.
    Chairman Johnson. Thank you, Director Thompson.
    Our next witness is Michael Missal. Mr. Missal is the 
Inspector General of the Department of Veterans Affairs. Prior 
to his service as the Inspector General, Michael was a partner 
at the law firm K&L Gates, where he led the firm's policy and 
regulatory practice groups. Mr. Missal.

  TESTIMONY OF THE HONORABLE MICHAEL J. MISSAL,\1\ INSPECTOR 
          GENERAL, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Missal. Thank you. Chairman Johnson, Ranking Member 
McCaskill, and Members of the Committee, thank you for the 
opportunity to discuss the work of the VA Office of Inspector 
General and how we provide effective oversight of VA's programs 
and operations through independent audits, inspections, and 
investigations. We seek to prevent and detect fraud, waste, and 
abuse, and make meaningful recommendations to drive economy, 
efficiency, and effectiveness throughout VA's programs and 
operations. Our goal is to undertake impactful work that will 
assist VA in providing the appropriate and timely services and 
benefits that veterans so deservedly earned and ensuring the 
proper expenditure of taxpayer funds.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Missal appears in the Appendix on 
page 107.
---------------------------------------------------------------------------
    I have had the great privilege of serving as the Inspector 
General since May 2, 2016. Since that time, I have fully 
immersed myself in the work, priorities, and policies of the 
OIG. We have made a number of enhancements since I started, 
including issuing a Mission, Vision, and Values statement, 
increasing transparency, creating a Rapid Response team, 
expanding our data analytics capabilities, and being more 
proactive in our review areas. I believe that these changes 
will enable us to do additional impactful work in a timely 
manner.
    The OIG shares a similar mission with GAO. It is important 
that we have a strong relationship with GAO to ensure that we 
avoid duplication of effort as much as possible. To that end, 
one of the first things I did when I started was to meet with 
Comptroller General Gene Dodaro and some of his senior staff. 
Our offices have had a number of discussions and communications 
since that time to promote coordination and effective oversight 
of VA.
    GAO added Managing Risks and Improving VA Health Care to 
its biannual High-Risk List in 2015, and it remains on the 
High-Risk List that was just issued for 2017. The GAO focused 
its concerns in five broad areas: ambiguous policies and 
inconsistent processes, inadequate oversight and 
accountability, information technology challenges, inadequate 
training for VA staff, and unclear resource needs and 
allocation priorities.
    While our work is determined by what we believe is the most 
effective oversight of VA, a number of our reports address 
concerns in these same five areas. As the Committee requested, 
I will highlight a sampling of OIG work in each of the areas 
that resulted in GAO placing VA health care on its High-Risk 
List. It should be noted that many of the OIG's reports could 
fit in more than one area.
    We have issued a number of reports in the past few years 
that include VA's ambiguous policies and inconsistent 
processes. A review of the Health Eligibility Center determined 
that VA had not effectively managed its business processes to 
ensure the consistent creation and maintenance of essential 
health care eligibility data. We made 13 recommendations in 
that report, including one focused on controls to ensure that 
future enrollment data are accurate and reliable before being 
entered into the Enrollment System (ES). VA concurred with the 
recommendations and provided sufficient information to close 
all recommendations in October 2016.
    Proper oversight by management would ensure that programs 
and operations would work effectively and efficiently. Our 
September 2016 report on the Denver replacement medical center 
is an extremely costly example of the result of inadequate 
oversight. Through all phases of the project, we identified 
various factors that significantly contributed to delays and 
rising costs. This occurred due to a series of questionable 
business decisions and mismanagement by VA senior officials, 
resulting in a project years behind schedule and costing more 
than twice the initial budget of $800 million. We made five 
recommendations and VA management concurred with all 
recommendations. We recently requested information from VA on 
the implementation status of the recommendations and will keep 
them open until VA provides satisfactory evidence of 
implementation.
    As we have reported in our list of VA's major management 
challenges within VA's Annual Financial Report, we have 
frequently identified VA's struggles to design, procure, and/or 
implement functional IT systems. IT security is continually 
reported as a material weakness in our Consolidated Financial 
Statement audits.
    VA has a high number of legacy systems needing replacement. 
Moreover, after years of effort focused on replacement of VA's 
legacy scheduling software, a new scheduling system is still 
not in place. VA's issues with scheduling software are related 
to the inability to define its requirements and determine if a 
commercial solution is available or if it must design a system. 
Replacing systems has been a major challenge across the 
government, and it is not unique to VA. We have issued a number 
of reports outlining access issues and our work in this area is 
continuing.
    One prevailing theme of the OIG's work related to wait 
times and scheduling issues was the inadequate, lack of, or 
incorrect training provided to VA staff for scheduling 
appointments. We conducted extensive work related to 
allegations of wait time manipulation through fiscal years 2015 
and 2016 after the allegations at the Phoenix VA Health Care 
System surfaced in April 2014. As we have reported in more than 
90 Administrative Summaries of Investigation and other reports 
that have been issued, the lack of training for schedulers and 
the lack of understanding of the process by their managers 
created a system in which long wait times were not accurately 
portrayed to management.
    VA needs to accurately forecast the demand for health care 
services in both the near term and the long term. The OIG is 
required by Section 301 of the Choice Act to review the 
Veterans Health Administration (VHA) occupations with the 
largest staffing shortages. In our most recent report issued in 
September 2016, we identified medical officer, nurse, 
psychologist, physician assistant, and physical therapist/
medical technologist as the critical occupations with the 
largest staffing shortages.
    In conclusion, the OIG is committed to providing effective 
oversight of the programs and operations of VA. A number of our 
reports address the five broad areas noted by GAO in placing VA 
health care on its High-Risk List. We will continue to produce 
reports that provide VA, Congress, and the public with 
recommendations that we believe will help VA operate its 
programs and services in a manner that will effectively and 
timely deliver services and benefits to veterans and spend 
taxpayer money appropriately.
    Mr. Chairman, this concludes my statement, and I would be 
happy to answer any questions that you or other Members of the 
Committee may have.
    Chairman Johnson. Thank you, Mr. Missal.
    Our final witness is John Roth. Mr. Roth has served as the 
Inspector General for the Department of Homeland Security since 
March 2014. In addition to previous work for the Food and Drug 
Administration (FDA), Mr. Roth had a 25-year career as a 
Federal prosecutor, including Chief of Staff to the Deputy 
Attorney General. Mr. Roth.

  TESTIMONY OF THE HONORABLE JOHN ROTH,\1\ INSPECTOR GENERAL, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Roth. Chairman Johnson, Ranking Member McCaskill, and 
Members of the Committee, thank you for inviting me here to 
testify today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Roth appears in the Appendix on 
page 114.
---------------------------------------------------------------------------
    Homeland Security faces long-standing challenges, and we at 
the Office of Inspector General have focused our energies on 
the major management and performance challenges, which we 
published in November. We listed six: one, creating a unified 
Department; two, employee morale and engagement; three, 
acquisition management; four, grants management; five, 
cybersecurity; and six, improving management fundamentals.
    Additionally, with the new Administration, the Department 
will face new responsibilities. We understand the significant 
investment the Department will be making to satisfy its 
obligations under the President's Executive Order (EO) to 
construct a Southern border barrier and the importance of 
spending that investment efficiently and effectively.
    The Department has historically performed very poorly in 
this area. As many recall, prior efforts to fortify the 
Southwest border, known as SBInet, were canceled in 2011 as 
being too expensive and ineffective. In a pilot program in 
Arizona, DHS spent about $1 billion to build the system across 
only 53 miles of the State's border before abandoning the 
initiative. We must not allow that to be repeated.
    Given the risks involved, our office will be using a 
lifecycle approach to audit and monitor the Department's 
actions to strengthen the physical security of the Nation's 
Southern border. A lifecycle audit approach means that we will 
be able to audit the project throughout its life span rather 
than waiting for the project to be completed or partially 
completed before looking at it. In this way, we have an 
opportunity to stop waste and mismanagement before the money is 
spent rather than simply identifying it after the fact.
    Our first report will address lessons learned from the 
Department's prior Secure Border Initiative and other relevant 
acquisitions related to securing our borders. We hope to have 
this report out in the next 6 weeks. Subsequently, we plan to 
review Customs and Border Protections (CBP's) comprehensive 
study of the security of the Southern border that the Executive 
Order requires be completed within 180 days. Future audits will 
also address the planning, design, acquisition, and 
construction phases of the Southern border barrier.
    Similarly, the Department will face a number of challenges 
in executing the President's Executive Orders directing the 
Department to hire an additional 5,000 Border Patrol Agents and 
10,000 Immigration Officers. We recently completed an audit 
that highlighted the numerous bottlenecks in effective Federal 
hiring. In fiscal year 2015, for example, it took an average of 
282 days--over 9 months--to hire a Border Patrol Agent, 
measured from the time the job announcement closed to the date 
the applicant was actually hired. Other positions likewise 
encountered similar significant delays. Again, we think this is 
an unacceptable level of performance and look to make 
recommendations for improvement.
    As with the acquisition area, we have initiated the first 
in a series of audits to further review the Department's human 
capital strategies and management capabilities to ensure the 
Department can quickly and effectively hire a highly qualified 
and diverse workforce. We again will do this continuously 
throughout the process rather than waiting for the hiring to be 
completed.
    Finally, we will continue to focus on DHS' highly troubled 
grants management program. In report after report, we have 
found efficiencies in the manner in which the Federal Emergency 
Management Agency (FEMA) holds grantees accountable and that 
the layer of oversight intended to monitor the billions of 
dollars awarded by FEMA in disaster assistance grants is 
ineffective, inefficient, and vulnerable to fraud, waste, and 
abuse.
    In fiscal year 2015, for example, we found a questioned 
cost rate of 29 percent, which is an unacceptably high 
percentage and serves as an illustration of FEMA's continued 
failure to adequately manage grants.
    We believe that the root cause of this problem includes a 
failure of leadership, an inability or lack of desire to hold 
grantees accountable, and systemic issues that may only be 
cured by systemic statutory fixes. We have started to explore 
with this Committee's staff some potential solutions, and we 
look forward to working with you on this important issue.
    Mr. Chairman, this concludes my testimony. I am happy to 
answer any questions you or other Members of the Committee may 
have.
    Chairman Johnson. Thank you, Mr. Roth.
    Let me start with Mr. Dodaro. In your testimony, you talked 
about cybersecurity. This is the 20th anniversary of being on 
the High-Risk List. Every other witness talked about either 
information technology challenges in the Department or also 
issues of cybersecurity.
    Can you summarize or give me kind of the main reason why it 
is so difficult to get agency heads or get departments up to 
speed from the standpoint of cybersecurity?
    Mr. Dodaro. Yes, this has been a long-standing quest that I 
have been on. When we first started this, we actually built a 
computer lab that simulated the operating environment of the 
agencies and were able to hack into their systems to show them 
how easy it was to get into their systems. And, we still were 
not getting a lot of traction or attention because people 
thought, well, who is going to do that?
    You could see this coming, years ago, as the government 
became more dependent on technology. Even with the breaches 
now, there is not a sense of urgency yet as much as I think 
there should be across the Federal Government.
    Chairman Johnson. Let me just quickly interrupt. Because of 
these high-profile breaches, are you seeing any increased 
attention to this matter?
    Mr. Dodaro. There is some. There is a lot of scrambling 
going on, but it is not really resulting in meaningful 
improvements in as many cases as it should. There are two 
things going on now. The government got a very slow start in 
this area despite our urgings. Second, it is saddled with a 
bunch of legacy systems that are decades old, where security 
was not built in up front, and they cannot patch them fast 
enough, and they have not been replaced with more modern 
systems with security technology built in up front. The 
workforce is not up to where it needs to be in order to be able 
to take care of this issue. And, there is not enough follow-
through to see that the recommendations are being implemented.
    A lot of this is just management attention, too. You need 
the technical people, but a lot of the weaknesses can result in 
employees not being aware and downloading malicious software 
into the system.
    There are well-defined best practices for having a 
comprehensive, effective cybersecurity program in place, and 
time after time we find that agencies do not have this 
comprehensive program in place. They are not responding to 
incidents when they do happen as fast as they need to in order 
to rectify the problem.
    I think this needs continual attention over time, but these 
legacy systems are part of the millstone around the agencies' 
efforts to improve cybersecurity. We did a report recently, 
which I am happy to share with the Committee, on the oldest 
systems in the Federal Government, and some of them--including 
one at the Department of Defense (DOD) was operating still on a 
floppy disk system. On the one hand, they said, ``Well, nobody 
is going to hack into it.'' But, on the other hand---- 
[Laughter.]
    Chairman Johnson. Cybersecurity.
    Mr. Dodaro. Protecting these systems against cyber attacks 
is not going to be sustainable over time. I cannot emphasize 
how concerned I am about this and how vulnerable we are. In 
2003, we extended it to critical infrastructure protection 
across the country. Now, most of the computer resources are in 
the private sector hands, but there needs to be sharing between 
the Federal Government and the private sector. There is a lot 
of reluctance to share information in this regard on security 
threats. And, the threat is evolving much faster than the 
agencies' ability to keep up with it.
    Chairman Johnson. Now, we did finally pass--and I would 
just say it is the table stakes first step in cybersecurity 
legislation here--in the Senate Intelligence Committee, but 
also in this Committee, the Federal Cybersecurity Enhancement 
Act. It provided information sharing, it provided liability 
protection, gave DHS a lot of authority in terms of imposing 
cybersecurity in the new EINSTEIN system on the agencies. Has 
that had any effect whatsoever? It was, again, just a very slow 
implementation.
    Mr. Dodaro. Yes, those things help. There have been five 
different bills that have been passed. That has been one of the 
most important ones that you cite. It gives a sense of 
importance and urgency to it. There is some progress, but not 
enough to match the threat, in my opinion.
    Chairman Johnson. Inspector General Missal, obviously we 
have had some real problems at Tomah. Other Senators have had 
problems as well, specific problems. One of the questions I 
have for you, in your office--which I believe you took over a 
pretty troubled office, and I appreciate the fact now you have 
instituted mission statements and are trying to address that. 
Overall, what percent--and I do not expect a precise answer 
here, but what percent of your reports involve investigations 
on specific instances, either through whistleblowers or things 
you read in the news, which, of course, we refer a number of 
those to you, versus overall inspections just in general trying 
to address the problems in particularly the VA health care 
system?
    Mr. Missal. A very high percentage do. We have a number of 
different reports that come out. Our Health Care Unit will do 
reports on specific cases, much like you mentioned, in Tomah 
and other facilities. We do national reports. And then, we have 
a very vibrant inspection program as well. Audits as well could 
be national, but we could focus as well on individual 
situations. So, it is a very healthy split of those.
    Chairman Johnson. So, almost a 50-50 type thing?
    Mr. Missal. Hard to estimate, but it is probably more than 
50 percent on individual situations at this time.
    Chairman Johnson. I was wondering if you were just being 
overwhelmed by individual instances, those taking up all your 
IG time, versus being able to concentrate on the day-to-day 
audits trying to improve the overall system.
    Mr. Missal. That is one of my goals. We are trying to clean 
out a lot of the work that was there when I started, which were 
a lot of the more individual cases. What I would like to move 
to is more impactful work, where we are doing more national 
health care reviews, we are doing more audits of programs, 
etc., and we are moving in that direction.
    Chairman Johnson. Inspector General Roth, you were talking 
about the challenges the Department has in terms of the 
Executive Order, implementing the reports, hiring the 
individuals. Hiring has been a real problem. You talked about 
hiring bottlenecks. Can you just quick describe those in the 
remaining seconds I have in my time?
    Mr. Roth. Certainly. We did an audit of the hiring 
specifically with regard to Secret Service and CBP, and what we 
found there were bottlenecks as a result of the lack of advance 
planning. For example, they would not have the right kind of 
personnel specialist available to actually work the systems 
that they needed to work. That was one problem.
    The second problem that they had was that the systems that 
they had were antiquated, they did not talk to each other, so 
the actual sort of flow of paper and flow of bodies through the 
system did not work as well as it needed to.
    And, the third is, frankly, the polygraph system that both 
the Secret Service and CBP have in place creates significant 
bottlenecks with regard to getting people on board.
    Chairman Johnson. Can you just quick describe the 
bottleneck in the polygraph system?
    Mr. Roth. Sure. Well----
    Chairman Johnson. Lack of personnel?
    Mr. Roth. It is that. I will just use Secret Service as an 
example. That is a collateral duty. It is a duty that a special 
agent would have in addition to the duties that he normally has 
of investigation and protection. Basically, he gets to the 
polygraphs whenever he gets to them. Of course, that is always 
going to drop low on the priority scale, and that backs up the 
kind of hiring that they are able to do.
    What we had recommended to the Secret Service as well as to 
CBP is to enhance, have a greater number of specialized 
polygraph operators who could do that work as their sole job.
    Chairman Johnson. So, it would seem to me that these 
bottlenecks could quite honestly be easily overcome.
    Mr. Roth. Absolutely. It just requires some advance 
planning, and that is why we want to do a lifecycle approach on 
this hiring, is to sort of warn them about what is coming and 
have them prepare in ways that make sense.
    Chairman Johnson. OK. Good. Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    Mr. Dodaro, back in 2009, GAO did a report that concluded 
that Customs and Border Protection had not conducted any kind 
of cost-benefit analysis on the effectiveness of physical 
barriers along the border. To your knowledge, has that cost-
benefit analysis, which is required in any major business 
expenditure, has that ever been done?
    Mr. Dodaro. Not to my knowledge. Let me just . . .
    I do not think so.
    Senator McCaskill. OK.
    Mr. Dodaro. No. The answer is definitely no.
    Senator McCaskill. Definitely no. In your opinion, at GAO 
should something that is going to cost billions of dollars 
begin without a cost-benefit analysis?
    Mr. Dodaro. No.
    Senator McCaskill. And, would it be typical to begin a 
multibillion-dollar project without any appropriated funds?
    Mr. Dodaro. That would be difficult to do. No.
    Senator McCaskill. I understand the Administration is 
relying on a previous authorization for border security, which 
I certainly support border security, but do we know even how 
much this is going to cost based on what you have looked at?
    Mr. Dodaro. Well, the last time when we looked at it in the 
2009 report, the estimates that were given at that time, it was 
$6.5 million per mile for fencing or barriers for pedestrian 
crossing and about $1.8 million for vehicular crossing at that 
time. Right now there is about--of the 2,000-mile border, there 
are about 650 miles where this fencing exists. Now, two-thirds 
of the remaining border, the Federal Government does not own. 
It is either State or it is private sector land.
    Senator McCaskill. So, it is going to have to be either 
bought or publicly condemned?
    Mr. Dodaro. Yes, and part of that happened with the 650 
miles as well. So, ownership----
    Senator McCaskill. So, the Federal Government would be 
taking land from the ranchers that live along the border?
    Mr. Dodaro. Or buy it from them. There would have to be 
some negotiation. There is the ownership issue of the border. 
There is a lot of rugged terrain along the border that would 
have to be dealt with as well. And then, there is the 
acquisition area that both the Inspector General from DHS and 
GAO have seen, is that the Department's ability to manage large 
acquisitions is one of the reasons they are still on the High-
Risk List. Part of that would have to be improving how they go 
about carrying out acquisitions.
    Now, with regard to the legal authority about the prior 
expenditures, I would have to go back, and I would have to take 
a look at that. Maybe there is some authority there that has 
not been used yet. But, generally speaking, you would have to 
have an appropriation available.
    Senator McCaskill. Let me move now to the Census. I have 
not looked at the contract, but I looked at the amount. We just 
entered into a contract for almost $1 billion for an 
integrator. That is a lot of money, $887 million for T-Rex last 
summer to integrate, and we have had some bad experience, and 
Mr. Dodaro can certainly speak to that. In fact, integrators' 
contracts have had a rocky history in the Federal Government in 
terms of success. And, I noticed when I was preparing for this 
hearing that you are asking them to integrate 50 different 
systems. Why do we need to make it that complicated, Mr. 
Thompson? Why do we need to integrate 50 systems? Can we not 
count people without integrating all of those different 
systems?
    Mr. Thompson. Thank you, Senator. We have 34 operations in 
place that we are planning to do for the 2020 Census, and they 
are supported by about 50 systems, as you mentioned. And, we 
gave your staff copies of those systems yesterday, and so the 
systems have to talk to each other, which is why we have----
    Senator McCaskill. But why 50? I am somebody who just 
landed from another planet. Explain to me what you are doing 
with 50 systems. Why do they all have to be combined for 
counting people, especially since we are going to be doing 
self-reporting I believe for the first time on the Internet? 
Why? I do not understand.
    Mr. Thompson. Right. Let me give you some examples. We have 
one system that we allow people to respond over the Internet 
with. That has to be integrated and talk to our control system 
so we know how many people have responded over the Internet, so 
we want to go out and collect the information----
    Senator McCaskill. OK. There is one.
    Mr. Thompson. Right.
    Senator McCaskill. Forty-nine to go.
    Mr. Thompson. Right. Then we have to be able to do the in-
person non-response, so we have to have a control system for 
that. We have to know----
    Senator McCaskill. OK, the people that do not answer, you 
have to go out and find them and talk to them.
    Mr. Thompson. Right. And then, there has to be an 
instrument that collects the information from the people that 
do not respond, so we have to give our interviewer the handheld 
device----
    Senator McCaskill. The handhelds hopefully this time.
    Mr. Thompson. Right.
    Senator McCaskill. Which we had to scrap last time.
    Mr. Thompson. I understand that. I would be happy to go on, 
but there is a need for each one of these systems. We have 
really carefully looked at the systems that we need because we 
do not want to make it overly complicated.
    Senator McCaskill. Well, 50 sounds very complicated, Mr. 
Thompson, and it may be that you absolutely have to have all 
50. But, I do not think you are on schedule. Some of it is 
funding, I agree. But, you need to have an end-to-end test, I 
believe you are planning for 2018.
    Mr. Thompson. Yes.
    Senator McCaskill. And, you need to have more tests in 
2017. You are already scrapping some of the projects you were 
going to do like in Spanish-speaking areas. I just worry that 
we are going to have deja-vu all over again, that we are making 
this more complex than it needs to be. Are you confident that--
I mean, because it seems to me in this day and age asking 
people to respond on the Internet--and on that, let me briefly 
go to another item. I think people are going to be reluctant to 
give their personal information over the Internet unless they 
are reassured about the security of that information.
    Are you working with DHS right now, are you working with 
other people in the area of cybersecurity so that you are 
confident you are going to have the protection of that data 
that will reassure people? Because every person who responds 
over the Internet is going to save us real money.
    Mr. Thompson. Yes, we are working with DHS, we are working 
with the National Institute of Standards and Technology (NIST), 
we are working with some private contractors to try to do 
penetration testing of the systems that we have. We do take 
that very seriously, and we are trying to work with the best on 
that.
    We also, by the way, do employ the EINSTEIN software on our 
Internet connections, so we are protected by that, too. We 
worked with DHS to get that in place. We take that very 
seriously.
    Senator McCaskill. Thank you, Mr. Thompson.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you. Thank you so much. We appreciate 
more than you know the work that is done at GAO on a lot of 
areas, but especially in preparing the High-Risk List. I have 
said for years that for me, for my staff and I, it is our to-do 
list. And, I think for this Committee, Democrats and 
Republicans, it is our to-do list.
    When you and I met earlier this week, we talked about some 
areas where progress has been made. One of those is with 
respect to property management, real property management. Would 
you explain why you think we have finally got the ball in the 
end zone on that?
    Mr. Dodaro. Yes. First, the Administration finally issued a 
national strategy to deal with this, to lay out with some goals 
and measures, to really have a good plan. To make progress you 
need that.
    Second, Congress really helped a lot with the passage of 
two bills at the end of last calendar year. One would be 
creating an independent board to make recommendations to sell 
or dispose of some high-value property that the Federal 
Government has. That is a good step forward, I believe. The 
second bill codified the Federal Council, the property 
management council in place, gave it some to-do lists. Congress 
required them to improve the data, to regularly report. 
Hopefully it will result in a reduced reliance on leasing as 
well. That is an area that still needs to be addressed. The 
Federal Government leases some property for decades that it 
would have been far cheaper to build rather than lease. We are 
trying to get the agencies to focus on some high-value leases 
and doing a cost comparison in those areas. They are starting 
to improve the accuracy of the information in the property 
management database.
    So, some leadership, some strategies, good support from the 
Congress, all these are ingredients to the progress.
    Senator Carper. Good. Thank you.
    There is a law called Federal Information Security 
Management Act (FISMA). I believe that is what it stands for.
    Mr. Dodaro. Yes.
    Senator Carper. But, that has been around forever and, 
frankly, not apparently too effective in terms of real-time 
security for Federal--the dot.gov domain. We passed FISMA 
legislation. I think a number of us on this panel worked on it. 
Dr. Coburn worked on this when he was with us as well. General 
Roth, do you have any sense for how the passage of that 
legislation is being implemented for good or for not? The idea 
is to make it real-time and not after the fact.
    Mr. Roth. Yes, continuous monitoring, and I will have to 
say from DHS' point of view, we had a somewhat different 
experience than what Mr. Dodaro recounted. I think in the last 
year of the close of the Administration, there was a real 
sprint based on some of the high-profile hacks that had 
occurred in other agencies, to try to get, for example, 
continuous monitoring online, to get all components to actually 
report the results to a central headquarters location, to get 
two-factor authentication on every machine and every user 
having two factors--in other words, a card that they stick in 
plus a password; and then, last, to get what is known as 
authorities to operate, which is basically a license, a 
certification by the Chief Information Officer (CIO) that those 
systems, in fact, are effectively locked down according to 
FISMA standards.
    We have seen, I think, some improvement. Obviously, with 
DHS there is a long way to go, but particularly in the last 
year, we have seen some improvement.
    Senator Carper. One of the things that we did in this 
Committee is to make it possible for DHS to compete for cyber 
warriors in terms of the kind of pay and personnel policies 
that they could offer to compete, whether it is against the 
National Security Agency or the private sector. Does anybody 
know whether or not that is making a difference yet? We did it 
over a year ago. Does anybody know, anybody have a feel for 
that?
    [No response.]
    OK. When Jeh Johnson became the Secretary and Ali Mayorkas 
became the Deputy Secretary of the Department of Homeland 
Security, I suggested to them that they do what Jane Holl Lute 
used to do when she was Deputy Secretary at DHS, and that is, 
go every month or two to GAO and sit down, whether it was Gene 
or some of his top folks, and just literally go through the 
High-Risk List that pertains to the Department of Homeland 
Security. My sense is that they did that, and my sense is it 
has made a difference.
    Would you just confirm or deny that for us?
    Mr. Dodaro. Yes. The relationship we have had with the 
Department of Homeland Security is really kind of a model on 
how to deal with the High-Risk List. When I first met Jane, she 
was puzzled as to why they were on the list, so I sent a 20-
page letter over that said, ``Here is everything you need to 
do.'' She said, ``I understand,'' and they developed a plan, 
and every so many months they reported to us. We had quarterly 
meetings, and they made real progress. We agreed on 30 things 
that needed to be done, needed to be measured. They fully met 
13 of them now. They still have a ways to go on the remaining 
piece.
    I have suggested that model that could be used in other 
places particularly at the VA with the High-Risk areas as well, 
and so that----
    Senator Carper. We just confirmed a new Secretary of the 
VA, Dr. Shulkin, who I think is going to be a good one.
    Mr. Dodaro. Yes.
    Senator Carper. His predecessor certainly was, Bob 
McDonald. We have the Inspector General here for the VA, right?
    Mr. Missal. Correct.
    Senator Carper. One of my pieces of advice to Dr. Shulkin 
would be to spend time with you and to develop a constructive 
relationship, a good working relationship, and figure out how 
you and your folks can help the VA going forward, and the same 
idea with GAO and the High-Risk List.
    Mr. Dodaro. Right. I try to meet with every Cabinet 
official, to talk about the high-risk area. We have had a 
series of meetings with OMB, the agency on the High-Risk List, 
and GAO, which I personally participate in, and that has, I 
think, had some benefits and showing progress.
    Senator Carper. Good. Mr. Thompson, how are you doing?
    Mr. Thompson. I am doing fine. Thank you, Senator Carper.
    Senator Carper. Good. Nice to see you. Give us one thing 
that we can do at our end, in addition to what we have already 
done with respect to the Census, to make sure the next Census 
comes in on time, on budget, maybe even under budget. What are 
maybe one or two things that this Committee and the Congress 
need to do to be a good partner?
    Mr. Thompson. Well, thank you for the opportunity, Senator 
Carper. As I said in my testimony and in my oral testimony, one 
of the issues that we are dealing with is the uncertainty of 
our funding. And, I know this is not Appropriations, but I know 
that we have good support so far from both Congress and from 
OMB and the Administration. If that continues, that will be 
very good. Like I said, we are in a very pivotal year right 
now, 2017. We would like to get some uncertainty lifted there. 
We also are looking forward to working with the Administration 
on the 2018 budget, and with the Congress. So, support there. 
Also help with getting administrative records. I know we have 
talked before about getting access to the National Database of 
New Hires, and your support there would also be very helpful.
    Senator Carper. Good. Thank you so much. Good to see you 
all. Thank you.
    Chairman Johnson. Thank you, Senator Carper. Senator 
Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman, and I appreciate 
your holding this hearing regularly, and this is an opportunity 
for us to gauge progress in some of these high-risk areas. And, 
some of these topics you have already discussed with others, 
but the two that jump out to me are real property and you talk 
about in your report the need for us to move more rapidly from 
leases to ownership where there is a long-term lease that is 
not cost-effective. You also talk about physical security at 
Federal buildings, and I want to probe those a little further.
    But, the one that always troubles me is the number of 
Federal facilities that are not being used or are not fully 
used, and yet we cannot seem to transfer those to either cities 
or States or private sector or nonprofit needs. This is where 
Senator Carper and I and the Chairman and I and others have 
worked on this over the years, including back when I was at 
OMB.
    Can you give us, Mr. Dodaro, a report on that part of the 
real property high risk that you over the years have 
identified? Where are we on the disposal of these properties?
    Mr. Dodaro. Yes. An example we give in our report is the 
Cotton Annex building for which GSA recently received a 
successful bid. Once the sale grows through GSA it will 
transfer ownership to the buyer. So, there is some progress, 
but it is not a lot. That is why I think this legislation that 
Congress passed last year to set up this independent board to 
identify some high-value real properties is an important step 
forward.
    Now, some of the properties are not worth a lot or they 
need a lot of repair, and the agencies have not had enough 
money to fix up the properties to make them appealing or 
attractive to sell, which is one area that I think has not been 
explored very much. Another area on our list is the Postal 
Service. They have a lot of vacant space now that I think could 
be perhaps rented out to other Federal agencies, which in turn 
could create other vacant space that could be sold and 
transferred.
    The bottom line to answer your question is there has been 
some progress incrementally, but not as much as I would like to 
see.
    Senator Portman. It seems like one reason you say there has 
been progress is that year-end we did pass those two bills 
finally.
    Mr. Dodaro. Right.
    Senator Portman. They should not have taken so long. One 
does provide for an inventory. Another does provide for this 
commission. Is that part of the reason you think things are 
going better just because we have set in place now some new 
laws in relationship to this? And, now I suppose our job is, 
along with you, to monitor the implementation of that and make 
sure it is actually done right.
    Mr. Dodaro. That is exactly right. In my experience over 
several decades now, most major management improvements that 
succeed in the government have a statutory underpinning to 
them, because it brings a degree of continuity and certainty 
over time, and then Congress can hold people accountable.
    Senator Portman. Yes. Can you tell us this afternoon how 
many square feet or how many buildings or what the value is of 
those buildings that are either not being used at all or are 
only partly being used?
    Mr. Dodaro. I do not have that information ready. I will be 
happy to see what is available and provide it for the 
record.\1\
---------------------------------------------------------------------------
    \1\ The information submitted by Mr. Dodaro appears in the Appendix 
on page 147.
---------------------------------------------------------------------------
    Senator Portman. It is an extraordinary number, and it is a 
great opportunity to save some taxpayer money, too.
    With regard to cybersecurity, you talked a little bit about 
this earlier, but one of the challenges you cite in your report 
is the agencies and departments having that cybersecurity 
workforce.
    With regard to DHS, looking at Mr. Roth, we have specific 
legislation that was meant to address that to try to attract 
some of the best and brightest and retain some of the good 
people.
    For both of you, how is that working? How is the framework 
working? Are you pleased with it? Is it something that you 
think we are making progress on or not?
    Mr. Roth. Anecdotally, it seems like the Chief Human 
Capital Officer (CHCO) at DHS is trying some innovative 
solutions with regard to hiring IT specialists and cyber 
specialists. Our plan was to let this go for a little bit just 
to have them get their sea legs before we do a formal audit. 
But, anecdotally, I think they are using this opportunity to 
try to hire as many as they can.
    Senator Portman. The idea of the legislation--and this was 
started back in 2014 with Senator Bennet and myself--was to 
establish some common language and job codes specific to 
cybersecurity because we had identified that as a problem, that 
it was difficult to hire people because we had not provided the 
sort of standardization as to what the job descriptions were 
and job codes. And then, we got some of the legislation passed 
as it relates to DHS, and, frankly, I just do not know that we 
are making the progress that we should be. Clearly, when you 
look at what is happening with regard to the hacking not just 
in government but all over now, this is a huge priority, and 
these people are in high demand, that is, the people that have 
the cybersecurity skills to be able to push back or go on the 
offense.
    But, you think, Mr. Roth, from your time at DHS that you 
see progress in this area? And, if not, what do you think we 
need to do? I mean, the rest of the government is not subject 
to the same rules that you are under this legislation. You are 
sort of the beta. You are like the test case here. Is it 
helping? Is it working?
    Mr. Roth. As I said, we have not done a formal audit of it, 
so it is very difficult to make a formal conclusion. But, 
anecdotally, we see DHS trying different things. For example, 
they had a job fair in which they brought a number of people 
who were qualified under that IT specialist and, were able to 
provide offers on the spot.
    We are hopeful, but, again, until we actually do a formal 
piece of work on it, it is difficult to conclude.
    Senator Portman. Could you do that work on it and let us 
know how it is working? One of the aspects, as I recall, was a 
central database to simply--which seems common sense but was 
not being done. Is that being done to your satisfaction? Is 
there a central database now where people know what all the 
cybersecurity needs are and that, as you said, when there is a 
job fair, can people give an offer without having to go through 
a long process? One of the things we found was that people just 
were not patient enough to wait for the government response. 
They needed to know right away. Are they getting the job or 
not? They had other offers in the private sector.
    Mr. Roth. Right. My understanding is that they recently 
held one of the first job fairs that, in fact, did that. But, 
again, this is anecdotal. This is what they are telling me. We 
have not validated it. But, we will bring this request back, 
and it seems like it is----
    Senator Portman. How long would it take you to audit that 
and to get back to us?
    Mr. Roth. It typically takes 6 to 9 months to do a full-
fledged audit.
    Senator Portman. Could you speed that up and get back to us 
in 6 months?
    Mr. Roth. We will do what we can.
    Senator Portman. I know there is a lot of interest in the 
Committee on that topic, and obviously an urgent issue, to be 
sure that we have the capability to be able to push back and to 
go on the offense where necessary.
    Thank you very much, Mr. Chairman.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you. All of you, thank you for the 
work that is ongoing. We appreciate it very much. I have about 
45 questions in 7 minutes here. [Laughter.]
    So, let me try to get through as many as I can.
    Mr. Dodaro, just a request for you as well. This Congress 
changed the W-2 forms and the acceleration of that, small delay 
in the returns coming to try to deal with identity theft and to 
deal with fraud. Is that something a year from now you will be 
able to tell us how it went? Obviously, that is just being 
implemented right now. When do you think we will get results on 
that?
    Mr. Dodaro. Yes, we will review the use of that for this 
filing season, and I am very pleased and appreciative that 
Congress acted on our recommendation to do that. I think it 
will be tremendously helpful, and we will report on that.
    Senator Lankford. That is one that should have been done 
before. We obviously lost billions of dollars on that over the 
past several years with the lack of action.
    For those of us that work in Indian policy, I was a little 
surprised to be able to see that some of the Indian issues for 
the first time were on the High-Risk List. So, my question to 
you is: Is this a new issue or a first time to look at the 
Indian issues?
    Mr. Dodaro. It is not the first time to look at the issues. 
It reached the threshold from my standpoint when I saw it on 
multiple fronts.
    Senator Lankford. Right.
    Mr. Dodaro. Schools, health care, energy resources, and I 
thought it was time to elevate the attention.
    Senator Lankford. It is clearly a national tragedy, some of 
the things that are happening in some of the Indian country, 
and I am so glad to be able to see it reach that limit. This is 
something that needs to be addressed.
    Can I ask specifically on the health care side, when you 
look at the health care, are you examining the differences 
between tribes that run their health care or between the Indian 
Health Service (IHS) running the health care? There are some 
locations where the tribe builds it or operates a facility, and 
so really they would all be listed under IHS. But, the 
operational system is very different whether the tribe is 
running it or whether it is being run nationally.
    Mr. Dodaro. Yes. We have been focused on the Federal 
facilities, not the tribe facilities.
    Senator Lankford. OK, even though they have an IHS 
footprint there in the middle of it as well.
    Mr. Dodaro. Right, so far. And, we have not looked at that 
because----
    Senator Lankford. That may be a good control to be able to 
look at it at some point.
    Mr. Dodaro. OK.
    Senator Lankford. Just to be able to examine it, because 
there are some obvious differences between how they run and 
what is happening to be able to see the differences as we are 
looking for solutions for the long term.
    Mr. Dodaro. OK. That is a good point.
    Senator Lankford. That is health care. Let me ask about the 
issue on Choice. There has been some conversation ongoing about 
VA and occasionally giving the appearance, at least, of 
dragging their feet on implementing Choice and some of the 
pushback on that. What are you experiencing? And, does it look 
like VA is currently actively implementing the Choice program 
in the locations and the way law States?
    Mr. Missal. Yes, we have some reports that we have already 
issued. We also have some work that is in progress right now. 
It does appear that progress is being made. Like, for instance, 
with respect to network providers, the physicians who are 
providing the health care outside of VA, those numbers have 
increased fairly dramatically, according to VA. There are still 
issues there with respect to Choice program that we are looking 
at. We are looking at access. We are looking at payments as 
well, as well as the sharing of records. When a veteran goes 
out into the community, there is an issue in terms of making 
sure the records get back to VA so that the VA system will have 
those records as well.
    Senator Lankford. OK. Terrific. Is there a way to be able 
to get an accurate number of the cost per patient per procedure 
that actually includes everything the private sector would 
include? When I have asked VA before for costs for certain 
items, capital expenses, all of those things were all different 
colors of money. Obviously, in the private sector they cannot 
do that. So, we cannot really get an accurate cost of what 
things are other than it is always more expensive in the 
private area, but we really cannot find out what it is from VA. 
How do we get that number?
    Mr. Missal. We have not looked into that. I think there 
would be challenges to getting that, but I certainly will take 
that back and see whether we can get that done.
    Senator Lankford. OK. That would be very helpful. 
Obviously, every business has to do that to be able to 
calculate what the actual cost is, including their capital 
costs and depreciation and such. It would be helpful for us to 
be able to have an apples-to-apples comparison as we deal with 
issues in the VA in the days ahead.
    Mr. Dodaro, the Social Security Administration (SSA) is not 
completely done with everything they need to do, especially in 
the disability area. Very small progress that you have noticed. 
One of my great frustrations is we have talked with them at 
length, multiple hearings on the occupational grid. Now, you 
know full well what that is, but for everyone else here that is 
tracking that, the occupational grid is basically a big 
dictionary of all jobs in America because, according to 
disability, you cannot be employed by any job available in the 
economy. Since 1978, that list has not been updated. There 
seems to be some slight changes in our economy since 1978 in 
the type of jobs.
    My recollection from your report is we have currently spent 
$178 million updating the job dictionary of the jobs in 
America, and we still do not have that dictionary. Is that 
correct?
    Mr. Dodaro. GAO has been tracking SSA's progress in 
replacing the Dictionary of Occupational Titles and obtaining 
more current occupational data. We will provide information for 
the record.\1\ We are particularly concerned about that they 
have not finalized the ability to use assistive technologies. I 
think personally the Congress may need to act to update some of 
the disability laws that underpin the process that the Social 
Security Administration is following. I think if you wait for 
them to do this job, it is not going to get effectively 
reformed.
---------------------------------------------------------------------------
    \1\ The information submitted by Mr. Dodaro appears in the Appendix 
on page 148.
---------------------------------------------------------------------------
    Senator Lankford. I could not agree more, and I would tell 
you that when we get the grid updated, we need to have a 
mandate that the grid is periodically updated on a routine 
basis rather than waiting every 40 years to be able to update 
it. We might want to update it more often than that, plus do 
some other disability work that desperately needs to be done.
    Mr. Thompson, let me ask you about the American Community 
Survey (ACS). The last time you and I talked a little bit about 
it, you were testing out some pilots on trying to remove some 
of the mandatory language to see how that would work. 
Obviously, people that get it often hate the American Community 
Survey. How is that going and the testing and removing some of 
that mandatory under penalty of law language?
    Mr. Thompson. We have been working on testing some 
language. We have actually done some focus groups looking at 
the language, and we are at the point where we have come up 
with some language that we believe is not as threatening. We 
would be happy to share that with you.
    Senator Lankford. Great. When will that be piloted out in 
the public?
    Mr. Thompson. We have already tested it in the public. We 
are doing one more test this year, and then we will be ready to 
go.
    Senator Lankford. Great. That would be helpful to see. And, 
on the Internet filing for the Census, may I assume that you 
are somehow combining that with the online filing of taxes? 
Because millions of Americans file their taxes online, is there 
a possibility they can also file their Census work at the same 
time they do their taxes? Or are we talking about two different 
passwords, two different systems, two different requests from 
people to be able to do their taxes at one point online but 
their Census at another point?
    Mr. Thompson. Right now we are looking at a separate system 
for Census and for the IRS.
    Senator Lankford. There is no way that people could fill 
out their Census work while they are also completing their 
taxes? The information is--obviously, there is not that much--
--
    Mr. Thompson. We would love to work with the IRS and have 
them be able to direct people to our site to fill it out, but 
we have not----
    Senator Lankford. But, they could not complete their taxes 
and also complete their Census work at the same time?
    Mr. Thompson. Not at the current point in time, no, sir.
    Senator Lankford. So, not by 2020, certainly if that is not 
being tried.
    Mr. Thompson. No, sir.
    Senator Lankford. OK. Thank you.
    Chairman Johnson. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman. I think that is a 
great idea, Senator Lankford. Yes?
    Mr. Dodaro. The only issue with that--and John could 
correct me if I am wrong, but I think the Census count is on a 
particular day, who is resident and how many people are 
resident on--was it the April 1st date. Your filing dates are 
different than that, so you would want to collate the specific 
dates.
    Senator Tester. Move it to April 15th. [Laughter.]
    At any rate, that is not why I came. First of all, thank 
you all for your testimony. This is for you, Gene and Mike, 
mainly with the Veterans Choice program. Can you tell me how 
reactive--either one of you--the VA has been with your 
recommendations of being on the High-Risk List? Have they taken 
this pretty seriously? Have they dragged their feet or are they 
kind of--what have they done?
    Mr. Dodaro. With regard to the recommendations that we have 
made, they are beginning to take some action on that, but we 
had new ones. There are still over 100 that are outstanding, 
Senator Tester, but I am very concerned they do not have a good 
plan for addressing the high-risk areas. We say that in our 
report.
    Senator Tester. Did you tell them that?
    Mr. Dodaro. Oh, yes. I met with Secretary McDonald three 
times: once to tell him we were putting him on the High-Risk 
List, he agreed; second, to tell him they did not have a good 
plan to come off the High-Risk List; and the third time was to 
offer GAO's experts in different areas--IT, for example--to 
help them understand best practices on how to do this. We had 
the meeting, but there has been very little uptake.
    Senator Tester. Mike, where do you interface on this 
process?
    Mr. Missal. Well, we interface because a number of the 
areas identified in GAO's high-risk area are also areas we are 
looking at as well.
    Senator Tester. OK.
    Mr. Missal. Like, for instance, IT is one area where we 
have a group focused on that.
    Senator Tester. So, how has their response to you been? Has 
it been proactive or has it been, ``Ahh, what the heck?''
    Mr. Missal. They say they are committed to adhering to the 
recommendations that we have.
    Senator Tester. Have you seen that commitment in action? 
Saying it is one thing, doing it is another.
    Mr. Missal. In some respects, yes. For instance, for VHA 
where we had--at our last semiannual report, there were 563 
outstanding recommendations. They have now reduced that to 320-
some-odd. I believe they are trying, but there are still some 
areas which give us great pause.
    Mr. Dodaro. I am very concerned, Senator, that they are not 
making the progress that I would like to see. I am planning to 
meet with Secretary Shulkin to talk about this. There is also a 
disagreement we have with them on wait times. We think veterans 
are waiting too long. The measure of wait times, of when there 
is an appointment scheduled, they are not measuring the whole 
experience. The IT systems--I could go on and on.
    Senator Tester. Gene, you have a lot of fans in Congress. 
You do. I think you can tell Dr. Shulkin that--and I say this 
as Ranking Member on VA. If they do not take these seriously, 
we are going to. We will do what we need to do on the VA 
Committee to hold them accountable to make sure that your 
suggestions are not just given lip service but actual 
productivity on it, because as has been pointed out by the 
Chairman and Ranking Member and yourself, you guys have saved a 
bunch of money. Efficiency is not a bad thing. And so, you can 
certainly utilize that.
    You brought up the housing finance system in your opening 
remarks, Gene, and that is something that we have worked on a 
bit. I agree with what you said. Taking the taxpayers off the 
hook and getting it out of conservatorship is really important. 
Do you guys ever get a chance to look at any of the legislation 
that we do? Is that within your purview to see if it actually 
solves the problem? Because there is legislation out there that 
actually I think gets to some of your points, but I do not know 
if it gets to your points.
    Mr. Dodaro. Well, if we are asked to look at legislation 
and comment on it, we will.
    Senator Tester. Have you been asked to look at the Warner-
Corker legislation from a few years back on housing? Somebody 
is giving you a note.
    Mr. Dodaro. Yes, and it basically says what I already said.
    Senator Tester. Good. [Laughter.]
    Because that is what I thought it said, too.
    Mr. Dodaro. Yes, but we have developed a framework for 
evaluating legislative proposals. I would be happy to look at 
any legislative proposal, but we do not do it proactively 
unless we are asked. I would be happy to do it.
    Senator Tester. But, you have already done it, you said.
    Mr. Dodaro. No. We could evaluate a legislative proposal 
against a framework that we developed to assess proposed 
changes. I was so concerned, about the weakness in the housing 
finance system, that I started a study under my own authority, 
to develop this framework. It describes the elements that when 
applied, should help reveal the relative strengths and 
weaknesses of proposed reforms, and identify what are likely 
significant tradeoffs among competing goals and policies.
    Senator Tester. I think we will do our best to get that in 
front of you so we can get your recommendations to make sure we 
are not pushing that does not solve the problem in its 
entirety.
    Mr. Dodaro. I would be happy to.
    Senator Tester. Thank you.
    Last month, Senators Durbin and Duckworth requested an IG 
report regarding broad implementation of President Trump's 
refugee ban. This is for you, Mr. Roth. When would you 
anticipate this to be completed?
    Mr. Roth. Some of it depends on the Department's response. 
We have already started a number of field interviews with the 
various airports, the individuals, the CBP officers there. We 
have requested documents. We have very good cooperation from 
CBP. We are going to be starting the high-level interviews 
hopefully as early as next week.
    We do not know how long it is going to take because we do 
not know what we are going to find, but my direction is that it 
ought to be weeks, not months, and we are working as quickly as 
we possibly can.
    Senator Tester. OK. I appreciate that. Have you had any 
difficulties getting the documents that you need for your 
investigation?
    Mr. Roth. No. The cooperation has been very good.
    Senator Tester. All right. And so, there are no findings 
you can share with us today, I would assume.
    Mr. Roth. No, but we understand the urgency, and we are 
moving as quickly as we can.
    Senator Tester. OK. Well, I appreciate all your work. Just 
a closing comment, and this is not why I came here at all, but 
the Census figure because of technology should be going down, 
not continually going up. This figure should be costing the 
taxpayers less, not more. My guess is you could probably get a 
hold of Facebook, they could tell you where everybody lives 
today or on the 1st of April. So, it would not hurt to maybe 
interface with those folks to find out how they can help you 
and save money.
    Mr. Thompson. Thank you, Senator. We actually do talk to 
Google and Facebook quite a bit to understand how they can help 
us.
    Senator Tester. OK. I will ask you the same question I 
asked Dodaro. Talk is one thing. Doing is another, OK? All 
right. Thank you very much. I appreciate all your work.
    Chairman Johnson. Senator Tester, as long as you brought it 
up--I appreciate you looking at our charts\1\--I will just give 
Director Thompson a chance to respond. Why has the cost, for 
example, per household increased by such a dramatic amount? 
These are inflation-adjusted dollars. Twelve times in terms of 
total dollars spent, why is that? And, again, we are mindful of 
the fact you just started in this decade.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 126.
---------------------------------------------------------------------------
    Mr. Thompson. Right. Actually, I started working at the 
Census Bureau as a career person in 1975, and I worked there 
through the 2000 Census, and I was the career executive for the 
2000 Census, so I have a lot of experience with the Census 
costs. I know there are two underlying causes for this.
    One, which is not the major cause, is that the population 
has grown. But, that does not explain this growth.
    The other factor is that we have been doing the same Census 
process since 1970, essentially, and that is, we mail out, they 
get mailed back, we capture the information electronically off 
the forms, and then we go out and we collect the information 
from those that do not self-respond. That operation has always 
been a paper-and-pencil operation. As our population has gotten 
more complex and gated communities, different and more 
languages, the only way you can adapt a paper-and-pencil 
process to that is to put more people on it.
    Just to give you an example, in 2000 we determined that the 
job had gotten so difficult for the people supervising the 
enumerators, we had to give them an extra assistant, and that 
added $250 million to the cost of the 2000 Census in 2000 
dollars. So, it is has really been the fact that we have had a 
paper-and-pencil process and we just had to throw more and more 
people at it.
    Chairman Johnson. It is not the requirements increase in 
terms of what you are collecting? It is really just the 
complexity of the population?
    Mr. Thompson. The basic Census questions have been 
essentially the same since 1970. We have had a long form and a 
short form. The short form has been about the same. In 1980 
Hispanic origin was put on the short form, but it has been 
about 10 questions. And, the long form or the ACS now, it has 
been about the same length.
    Chairman Johnson. Mr. Dodaro.
    Mr. Dodaro. Mr. Chairman, I believe another contributing 
factor is the fact that the Census has been done through a mail 
process, but the response rate has gone down considerably since 
1970. I think in 1970, John, it was like about 78 percent or 
over 70 percent; now it is down to about 60 percent. So, if 
people are not responding, then they have to go send people out 
to their homes. Even if you use the Internet, the question is--
using Facebook or other media--will they respond? That has been 
a challenge for the Census, particularly as the demographics 
change in the country. There are notably a number of hard-to-
enumerate areas and low-income and minority populations that 
Census is working hard on with special projects.
    I think, the question is: How willing are the American 
people to provide the information?
    Chairman Johnson. My guess is we will be holding a hearing 
on this in the future, so that would be good, just up front 
give an explanation of that. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. General Roth, thank you for your years of 
service. I have a few questions for you. You indicated in 
fiscal year 2015 that it took on average about 9 months to make 
a hire at U.S. Immigration and Customs Enforcement (ICE). Is 
that correct?
    Mr. Roth. That is correct.
    Senator Harris. OK. My rough math tells me it would 
take--if it takes that long for each person that needs to be 
hired to fulfill the directive from the Executive Order, it 
would take 11,250 years to process an additional 15,000 
officers. Now, I am sure it will not take that long, but have 
you assessed how long it would take you based on current 
standards to actually bring on board the 15,000 new officers 
that are directed?
    Mr. Roth. We have not. The only thing that we have looked 
at is the last time that there was a surge of deportation 
officer hirings, for example. That number that is reflected in 
my testimony actually almost quadrupled. In other words, when 
you try to put more people through the same pipeline, the 
logjams are going to get even greater. So, that is why we want 
to sort of take a look at this earlier.
    Again, they are not hiring one at a time serially. They are 
trying to do it sequentially. And, I would say that is from the 
moment that the announcement has closed to the time that that 
person is actually hired. But then, of course, there is 
training and all sorts of on-boarding that would have to go on. 
So, that 9-month number is actually quite a bit longer.
    Senator Harris. Have you been given a timeline for when 
those 15,000 new officers should be brought on board?
    Mr. Roth. We have just started our work on this area, so we 
do not have any information yet as to what the Department's 
plans are in this area.
    Senator Harris. Has there been any discussion about a goal 
in terms of a date that that would be completed?
    Mr. Roth. Not yet. Some of this depends on what the 
Department's planning is. What we do with lifecycle audits is 
we will take a look, for example, if it is an acquisition, we 
will look at the phase of figuring out what the need is, for 
example, or the requirements, and then we will basically follow 
the Department through that process. I do not think the 
Department has yet started or at least I am not aware that the 
Department has actually started the initial process of figuring 
out how it is that they are going to on-board this many people.
    Senator Harris. And, I appreciate that in your testimony 
you indicated that you will audit with the aim of ensuring that 
DHS can quickly and effectively hire a highly qualified and 
diverse workforce. Is that correct?
    Mr. Roth. That is correct. I think that is the Department's 
goal as well.
    Senator Harris. Great. So, just based on my experience as a 
prosecutor in California, we know that when we bring officers, 
law enforcement officers, on board, we want to bring them on 
board after we have had an ability to vet who they are and to 
ensure that they actually will be able to perform their job in 
a correct manner. Do you have any concern that with this 
historic goal of bringing on 15,000 new officers--I understand 
there are only 7,000 there 
now--that we might compromise our ability to bring on highly 
qualified officers?
    Mr. Roth. Certainly the last time CBP had a hiring surge, 
there was a concern about the level of quality that they were 
getting, and as a result, for example, that is when Congress 
stepped in and instituted mandatory polygraphs, for example. 
But, that is always an issue any time that you try to increase 
the hiring; the worry is that you are going to reduce the 
quality. I think that is something we will look at as we move 
forward in this process.
    Senator Harris. Can you then give us in about 3 months an 
update on what you might believe Congress should do in this 
circumstance to ensure that we are bringing on highly qualified 
officers?
    Mr. Roth. As I said, this will be a process, so I cannot 
really commit as to when we are going to get the first product 
out there that will sort of describe what the Department is 
doing, but we will certainly do this on an ongoing basis. Of 
course, as an IG, we are committed to keeping Congress fully 
and currently informed.
    Senator Harris. What would you recommend I ask you as a 
timeline for when you would come back to report the status of 
the quality of the officers who are being brought on board?
    Mr. Roth. I think in about 3 months we are going to know a 
lot more about what the Department's process----
    Senator Harris. Three months, that is fantastic. That is 
great.
    Mr. Roth. As I said, in 3 months we will know more. 
[Laughter.]
    I do not know if we will have----
    Senator Harris. Well, what you know I would like to know, 
too, so I will expect you to come back, and we can arrange it 
through the Chairman and the Ranking Member.
    Mr. Roth. We are happy to brief anybody on the Committee 
who would like to hear about it.
    Senator Harris. Thank you. One of the concerns that we have 
had across the country in terms of law enforcement officers is 
that we are adequately hiring and then training with an eye 
toward implicit bias and procedural justice concerns. What in 
your audit is detecting and tracking the Department's ability 
to hire in a way that we look for implicit bias and also train 
so that we avoid implicit bias and that we encourage procedural 
justice?
    Mr. Roth. We have not looked specifically at that issue. 
Again, this series of audits is going to be more mechanically 
based, that is, how it is that you take a great number of 
people and try to fit them through what is really a finite 
pipe.
    Senator Harris. Yes.
    Mr. Roth. We do, of course, as part of what we do a lot of 
civil rights/civil liberties investigations, excessive use of 
force, those kinds of policing issues, which we will continue 
to do, of course, as our mandate. But, we have not specifically 
looked at that issue.
    Senator Harris. What would be your recommendation based on 
your experience that we could do to audit beforehand so we can 
prevent what otherwise would be something you are going to have 
to react to afterward, which is that there will be distrust, 
there could be very unintended and serious consequences, 
including lethal consequences, if we are rushing through this 
large number of people without properly vetting them on this 
issue, and, in particular, when we are talking about ICE agents 
and the issues that are at play?
    Mr. Roth. Well, I think one of the issues is a leadership 
issue, and so this Committee obviously will have the 
opportunity to take a look at who the nominees are for these 
various positions and get the kinds of commitments that I think 
would be required to send the message to the rank-and-file as 
to what is the appropriate level of conduct that the rank-and-
file has. If you are asking me my advice, my advice is to take 
the advice-and-consent process very seriously when it comes to 
the ICE Director and when it comes to the CBP Director.
    Senator Harris. Thank you.
    Chairman Johnson. Senator Paul.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. Thank you. Mr. Chairman, if you want to save 
money on the Census, maybe we could, let us see, give people a 
$100 deduction on their taxes, and then those who sign up for 
welfare, make it part of their signing up for welfare. I would 
bet you 95 percent of the public either pays taxes or receives 
something from government. So, have them sign up and use the 
data. If it happens on different dates, just change the rules. 
Why not just say, ``Well, estimate how many kids you are going 
to have and what your income is going to be on April 1st?'' It 
is all sort of an estimate to a certain extent. And then, maybe 
we should charge people to use the Census data. We do not do 
any charging, right, for Census data?
    Mr. Thompson. No, sir.
    Senator Paul. Companies love this data, right? It is really 
important to know what incomes and how many people of a certain 
age. Companies could just be charged for it. I will bet you I 
could run the Census Bureau without any money, if you will sell 
it to me----
    Senator McCaskill. I think that is a great idea.
    Senator Paul. If you will sell it to me. [Laughter.]
    But, anyway, we should not just stick to rules. We have a 
rule it has to be on April 1st. Make it that it has to be 
sometime during that year, and we just say now the Census is 
for information that year, not April 1st of every year. But, 
pay people for the time to fill it out. I guarantee if you let 
people have a $100 deduction, which is no more than like a $33 
or $34 reduction in their taxes, they would do it probably. 
They would probably fill it out. You would get huge voluntary--
compare that to the postage that you send out on millions and 
millions of things. Then you mail them again. Then you have 
somebody knock on their door. You could really get a lot of it 
done through the tax system and probably through the welfare 
system as well for anybody that signs up. People sign up for 
welfare, they sign up for Social Security, all that stuff. 
Still make it voluntary, and for the people who sign up, it 
just should be a requirement of signing up for government 
benefits. But, for those who want to do it on their tax return, 
give them a benefit.
    Getting back to the subject----
    Chairman Johnson. Can I ask----
    Senator Paul. Go ahead.
    Chairman Johnson. Do we have three cosponsors of that one 
here? [Laughter.]
    Senator Paul. Think about it. Think outside the box.
    Chairman Johnson. Happy to look at it. Let us work on 
something like that.
    Senator Paul. I have a great deal of respect for those who 
look throughout government for waste and try to fix things, and 
in fact, sometimes I have thought maybe after doing it for a 
couple years, we should put you in charge of the organization, 
and maybe we would get even more effect from your 
recommendations.
    But, I also have watched waste since I was a kid. I 
remember William Proxmire, the Golden Fleece awards and the 
waste. I scratch my head and cannot scientifically say this, 
but I would say the more we are trying to get rid of it, the 
more it stays the same, the more it is still there. I guess my 
question in general is, not that it is your fault, you are 
finding it, but we will start with Mr. Missal, that, you find 
it. How often do you think as a guess when you find it or we 
are getting rid of the problem--I will give you one example 
that we used in our waste report from your digging was the 
300,000 TVs at the VA that were wrong connections, stuck in a 
closet, bought before the renovation, and I think to my mind 
are still not being used. You found that. That came to their 
attention. Maybe that person does it again, but do you think 
you fixed a systemic problem when you found that problem so it 
does not happen again? Or do you think we need more done to fix 
the systemic problem that you found in that particular 
instance?
    Mr. Missal. That was one report where the dollars were not 
that large compared to a number of things we do, but that got a 
lot of publicity and attention. Hopefully that would have a 
deterrent effect for others. But, I think we need to expand the 
work that we are doing with respect to finding waste, and we 
are trying to be more proactive. We are expanding our data 
analytics capability so that we can look for outliers, which 
should give us a better indication.
    Senator Paul. When you find waste, is it fixed 100 percent 
of the time, 50 percent of the time, 20 percent? Just a guess.
    Mr. Missal. For that particular situation, we will have----
    Senator Paul. Any situation of finding waste, how often do 
you feel like you are satisfied by the organization that you 
are inspecting that it gets fixed? Just a guess.
    Mr. Missal. I think for a particular situation, we are 
satisfied, but we also know that is not going to be the only 
problem, that I think there are significant issues out there.
    Senator Paul. So, that is the question: Are we finding 
waste, fixing it, and then waste just keeps cropping up? Or do 
we have some of the waste that we have had for decade after 
decade and it is not going away despite the people finding it? 
That is a big question. Are we eliminating some waste and just 
new waste is popping up? If it is new waste popping up, then 
what do we do as an incentive to get less waste in government? 
Do we have more waste in government? Is it less quickly fixed 
than it is in the private marketplace? My guess is that if you 
have to make a profit and make a payroll each month, you 
quickly make adjustments, and the government is probably slower 
in that vein.
    One of the things that I have introduced--and if anybody 
wants to make a comment on it--is legislation that would give 
bonuses to civil servants who find waste. We have sort of a 
whistleblower program for malfeasance, but not much is used. 
But, actually to give people a financial bonus if they find 
waste--and I think everybody here is actually supportive of it, 
Republican and Democrat. But, whether or not we could try to 
introduce some incentives like that into government so if waste 
is an inherent problem, when waste seems to be worse in 
government than the private sector, bring a private sector kind 
of thing into that. We will start with Mr. Missal, and then 
anybody else who wants to respond.
    Mr. Missal. I think a program like that would be helpful as 
we are always looking for ways to get more information. We are 
trying to be proactive, find things on our own, but that is 
going to be limited given the people we have. Any opportunity 
there is for others out there, we have a hotline where we look 
at every contact that comes in, and so we would love more 
contacts to that hotline.
    Senator Paul. Anybody else on ways to find waste?
    Mr. Dodaro. If we did that at the GAO, I could have retired 
a long time ago. [Laughter.]
    Senator Paul. We would have to exempt you, sir.
    Mr. Dodaro. But, I would say anything that would help 
identify acting that have a positive outcome would be very 
welcome. On your point about how much is systemic versus how 
much is solvable, it is a mixture of both. Over 75, almost 80 
percent of our recommendations are implemented over a 4-year 
period of time. I will give you one classic example. We make 
recommendations to stop particular weapons systems--the 
technology is not mature, they are not ready to go into 
production. But, yet different weapons systems will be approved 
that have a similar kind of problem. Some things get stopped 
completely and they are not bought at all, the same thing with 
IT systems. But, there is a systemic problem there about why 
we----
    Senator Paul. Just one quick comment. I think that is 
great. If you are fixing 75 percent of the problem, that would 
be enormous if that is true, and it may well be. But, it 
probably shows that we have another problem then, the 
generation of more waste.
    Mr. Dodaro. Right.
    Senator Paul. And then, some waste is in the eye of the 
beholder, and it is the philosophical view of what you think 
government should do----
    Mr. Dodaro. I think one of the reasons for that, Senator, 
is that most Federal programs get funded year after year 
without having to prove that they are effectively accomplishing 
their objectives. It is hard, and the burden is on us now in 
the accountability community to prove something is not working, 
to get it stopped.
    Senator Paul. But, one quick point before I finish. The 
people we have here are doing sort of their job in what we want 
them to do, but it is bigger than their job. They are finding 
the waste, and we are eliminating it. We also have to look for 
the incentives-we have to change the incentives somehow of 
government because they are finding as much as they can maybe, 
and we can try to be even better. But, it is still not enough 
because there is an enormous amount of waste in government. I 
am not saying you do not do your job. I think we need to think 
beyond what we normally do to see if there is any way to change 
incentives in government.
    Thank you.
    Chairman Johnson. First of all, Senator Paul, I think these 
are great ideas, and I am really looking forward to the use of 
your Subcommittee to generate more of these. And, I am serious 
about that. I think this is really good. I would like to work 
with you and maybe the Director on Census proposals as well. 
Good ideas. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman, and I think from 
all the attention the Census has gotten, we probably need to 
have a whole other opportunity to sit down and go through the 
Census and the process, because I have some questions, too, but 
I do not want to spend my time talking about the Census.
    I want to again congratulate Gene for the great work that 
GAO does. Senator Ernst and I, as you know, worked very hard to 
craft legislation to improve program management across the 
Federal Government. Our bill went on to be signed into law 
finally in December, and I was really pleased when you gave us 
a shout-out in your testimony. The Program Management 
Improvement and Accountability Act, I think if it is properly 
implemented--and we tend to be very aggressive in oversight--
can foster prevention for waste. I am really excited about the 
opportunity to work with you and make sure it is implemented, 
and make sure that the ideas that were in that bill actually 
see the light of day going forward.
    I want to talk about this idea of waste, fraud, and abuse, 
and whistleblowers. Mostly, John and Michael, as IGs, you know 
that we have been working with your organization to try and get 
one portal where people on this dais can actually go out and 
look, where people can try and discover systemic kinds of 
waste, systemic frauds that are going on. Have you both 
participated in that effort? And, are there any recommendations 
you would make to us about how we can provide greater 
transparency on IG reports?
    [Pause.]
    Mr. Missal. We agree wholeheartedly with more transparency. 
We would, support efforts to get more information. With respect 
to whistleblowers, we have had our staff trained with respect 
to how to ensure that we treat whistleblowers with respect, 
that we get the information from them that we need. And so, 
anything that can help us----
    Senator Heitkamp. Are you familiar with the work that we 
are doing or the work that the association is doing, the IG 
association?
    Mr. Missal. With the Council of the Inspectors General on 
Integrity and Efficiency (CIGIE), yes, we are very active with 
CIGIE.
    Senator Heitkamp. OK. And so, you are familiar with the 
portal that is being developed.
    Mr. Missal. Yes, absolutely.
    Senator Heitkamp. And, do you see this as a mechanism to 
provide more systemic oversight? When GAO issues a report, we 
know where to go. We do not have to go to, Interior's GAO. 
Bureau with the IG reports, each one of the agencies have their 
own separate way of doing things. I think getting everybody 
onto one portal--I am not saying you have to abandon what you 
are already doing, but to me it is a way to really examine 
whether we have a lot of cross-pollination that we can do to 
avoid waste, fraud, and abuse.
    Mr. Missal. Absolutely, and we have spoken as IGs together. 
I think there is strong support for that idea to do it. I agree 
with you that we would not abandon what we are doing 
individually as an agency, but having one portal I think would 
be very helpful.
    Senator Heitkamp. We are going to be very aggressive on 
this issue.
    John, have you looked at the draft portal?
    Mr. Roth. Yes, we participate in it, and I cannot tell you 
right now the very status of it, but I know that there is a lot 
of excitement within the IG community to have a single point of 
contact in which basically every IG report gets published.
    Senator Heitkamp. Just for my colleagues here, I think this 
is amazing because this has all been done without any 
appropriation.
    Mr. Roth. Right.
    Senator Heitkamp. It has been done just through volunteer 
work. The Postal Service has been great, providing the 
background and some of the technical support. We think we can 
even improve it more with just a little bit of attention to an 
appropriation, and so we are going to be working very hard on 
that provision because I think sunshine is a huge component.
    I want to go back to you, Gene. We talk about this quite 
often when you appear either in our Subcommittee or before the 
full Committee. What tools do we need to give you, what can you 
recommend to us that we should be doing in our oversight 
function that we are not currently doing or we are not 
aggressive enough on?
    Mr. Dodaro. Well, first, I am very appreciative of the GAO 
bill that Senator McCaskill mentioned in her opening remarks to 
give us additional access authorities. That has been signed 
into law now. That was very helpful.
    I think if we run into problems getting information--we are 
not currently having any right now--I would want the 
Committee's support to help us get the information that we 
need.
    I would suggest for the high-risk areas, I would like to 
see more hearings on the high-risk areas. We flag individual 
ones that need legislative action to actually address the 
issue. Many of them require Executive Branch actions. But, a 
fair number of them also require legislative action to address 
the high-risk problems. And so, I would like to see more 
hearings and attention on those high-risk areas.
    And so, I feel we are well supported. Obviously a word on 
our budget would not hurt. I cannot go by without taking this 
opportunity.
    Senator Heitkamp. Tell us what has happened to your budget 
in terms of the growth of the overall Federal expenditure and 
then what we have given, our eyes and ears out there, what we 
have given you to examine it.
    Mr. Dodaro. Well, we are operating under a continuing 
resolution (CR) that is less than last year's funding, so I am 
not replacing people as they leave the GAO. We cannot afford it 
until we have an appropriation for the year.
    Senator Heitkamp. Are you subject to the hiring freeze?
    Mr. Dodaro. No.
    Senator Heitkamp. OK.
    Mr. Dodaro. No, but I do not have a budget. And, that is a 
problem with all the----
    Senator Heitkamp. Heck of a way to run a railroad, is it 
not?
    Mr. Dodaro. We came out of the sequester in 2013, though, 
just to put this in perspective, at the lowest staffing level 
since 1935. We have clawed back some of that, but I believe we 
need to be at least 3,250 people at the GAO. Right now we are 
under 3,000 and going down unless we get an appropriation for 
this year.
    Senator Heitkamp. Have you ever calculated that for every 
dollar of investment in GAO managed well by you what that would 
return in terms of----
    Mr. Dodaro. Last year, it was $112 for every dollar 
invested in GAO. We returned over $63 billion in financial 
benefits. The year before it was $70 billion. We are a good 
investment.
    Senator Heitkamp. The point that I want to make, before I 
conclude here, is that we are so often penny wise and pound 
foolish. I do not think that Congress takes its oversight 
responsibility as seriously as it should. I think that you are 
that auditor for us, whether it is a management audit, whether 
it is a fiscal audit, and we ought to have a fully funded, 
functional GAO and then a fully functional Committee and 
Congress that is going to be absolutely aggressive. Because if 
people think these are just one-offs, which I think in the past 
they have, then, you feel a little bit of heat and it goes 
away. We need to turn up the heat and make sure that every dime 
that we spend of taxpayer money gets spent in a way that that 
taxpayer would spend it themselves.
    I really appreciate all the work that all of you do. 
Continue to send suggestions and ideas. We are very curious and 
interested in what we can do to help.
    Mr. Dodaro. Thank you very much, Senator.
    Chairman Johnson. Thank you, Senator. It sounds like Gene 
had done that calculation, unless he is really quick with the 
math. [Laughter.]
    That is what you call a softball question.
    Senator Heitkamp. Mr. Chairman, he asked me to ask him that 
question. [Laughter.]
    Chairman Johnson. I was expecting to see a $20 payment 
here.
    Senator Heitkamp. Oh, no. It cost him a lot more than that.
    Chairman Johnson. Gene, real quick--now, watch out. You 
have a gift limit.
    Just quickly, how many hearings were held in the last 
Congress, other than the one in this Committee or maybe the 
Oversight Committee in the House, on the High-Risk List?
    Mr. Dodaro. Over 250 hearings.
    Chairman Johnson. Different hearings on the High-Risk List.
    Mr. Dodaro. On areas covered by the high-risk area.
    Chairman Johnson. OK. Well, that is pretty good.
    Mr. Dodaro. It is good, and 12 bills came out. That is why 
you saw progress, 12 pieces of legislation. There are very few 
high-risk areas that make progress without congressional 
attention on oversight, prompt action on the agency, or without 
statutory changes and without some funding. Some of these areas 
Congress funded, gaps in the weather satellites that help them 
put in contingency plans, that got effectively implemented. Any 
lasting change has to have some statutory----
    Chairman Johnson. But, again, the committees of 
jurisdiction take this High-Risk Series very seriously, and 
they actually hold hearings on those recommendations with those 
departments and agencies.
    Mr. Dodaro. Yes, but it is not evenly distributed across 
the high-risk areas. Most of the hearings were held on 
cybersecurity, a lot on veterans affairs. And so, they are not 
uniformly focused on some of these areas.
    Chairman Johnson. I just asked Senator McCaskill if she 
would be willing to sign on to letters, two of us and you, to 
those committees of jurisdiction asking them to hold hearings 
on specific high-risk areas. If you want to prepare that list, 
we will do those letters.
    Mr. Dodaro. Sure.
    Chairman Johnson. And, we will sign them to prompt that 
action, because this works.
    Mr. Dodaro. I would be happy to do so, and I appreciate 
that support. I think it is very helpful.
    Chairman Johnson. Again, thank you all for, first of all, 
what you do--how many dollars to $1?
    Mr. Dodaro. $112.
    Chairman Johnson. And, IGs, your return on investment?
    Mr. Missal. Ours last year was $35 to $1.
    Chairman Johnson. Well, you have to up your game. 
[Laughter.]
    But, no, thank you very much. Director Thompson, thank you 
again. I realize this was a little bit different for you coming 
into this setting. We will hold a hearing on the Census. Again, 
I think Senator Paul's suggestions are intriguing, and maybe we 
can take a look at some out-of-the-box thinking to drive some 
improvements from that standpoint.
    Mr. Thompson. I would like forward to a hearing.
    Chairman Johnson. Again, thank you all for your time, your 
testimony, and your work. The hearing record will remain open 
for 15 days until March 2nd at 5 p.m. for the submission of 
statements and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 4:37 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
